Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

February 6, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re 19-599: Samuel C. Mohorne v. Beal Bank, et al.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Rehearing referenced above contains 708 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

k Suber, Esq.
Principal

LISA KAY NICHOLSON
,
Notary Public
) State of Maryland
' Montgomery County
My commission op. October 12,2022

Sworn and subscribed before me this 6th day of February 2020.

c<^f Ji

